Audit of University Hospital of Brooklyn's Organ Acquisition Costs Claimed for the period January 1, 1998 through
December 30, 1998,"(A-02-02-01022)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of University Hospital of Brooklyn's Organ Acquisition Costs Claimed for the Period January 1, 1998 through
December 30, 1998," (A-02-04-01003)
December 6, 2004
Complete
Text of Report is available in PDF format (265 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether organ acquisition costs claimed on the calendar
year (CY) 1998 Medicare cost report by the University Hospital of Brooklyn for its kidney transplant program were allowable.  The
University Hospital of Brooklyn did not comply with certain Medicare laws, regulations, and guidelines for claiming organ
acquisition costs in the preparation of its Medicare Part A cost report, and received excess Medicare reimbursement for
organ acquisition activities.  The University Hospital of Brooklyn claimed $343,272 in unsupported costs.  The
estimated Medicare overpayment was $263,888.  The unsupported costs did not comply with Medicares documentation requirements
for reimbursement.  We recognize that some portion of the unsupported costs may have related to organ acquisition
activities and would have been allowable if documented properly.  We recommended that the Medicare intermediary recover
that portion of the estimated Medicare overpayment that the University Hospital of Brooklyn is unable to support; review
organ acquisition costs claimed in subsequent years for unsupported costs similar to those identified for CY 1998, and
recover any Medicare overpayments; monitor future claims to ensure compliance with Medicare requirements; and instruct
the University Hospital of Brooklyn to develop and maintain adequate time-and-effort reporting and accounting controls,
and to provide clear direction to personnel as to Medicare requirements for claiming and documenting organ acquisition
costs.